CERTIFICATE OF SERVICE

I, the undersigned say:

1.

That I am over eighteen (18) years of age, a resident of the County of
Sonoma, State of California, and not a party to the within action.

That my business address is 2751 4th Street, PMB #136, Santa Rosa,
CA 95405.

That I am the attorney appointed under the Criminal Justice Act to
represent HECTOR MOLINA for purposes of filing a writ of
certiorari.

That I served the within Petition for Writ of Certiorari on counsel
for the respondent and related parties by enclosing a copy thereof in
an envelope, first class postage prepaid, and depositing the same in
the United States mail at Santa Rosa, California on November 20,
2020 addressed to:

California Attorney General’s Office Solicitor General of the United States

455 Golden Gate Ave. Department of Justice

Suite 11,000 950 Pennsylvania Ave. NW

San Francisco, CA 94102 Washington, DC 20530-0001
5. That all parties required to be served have been served.

I certify that the foregoing is true and correct.

Executed on this 20th day of November 2020, at Santa Rosa, California.

   

=: aee
Dena Marie YSung>~
